TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Additional Actions Are Needed to
                    Measure and Evaluate the Impact of the
                       Pay-for-Performance System on
                     Recruiting, Retaining, and Motivating
                            Highly Skilled Leaders



                                           May 13, 2010

                              Reference Number: 2010-10-054




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


ADDITIONAL ACTIONS ARE NEEDED TO                       determined the System is not having a
MEASURE AND EVALUATE THE IMPACT                        negative impact on the IRS managerial
OF THE PAY-FOR-PERFORMANCE                             workforce. While these are positive initial
SYSTEM ON RECRUITING, RETAINING,                       steps, there are several actions the IRS
                                                       needs to take to determine if the
AND MOTIVATING HIGHLY SKILLED
                                                       Pay-for-Performance System is helping the
LEADERS                                                IRS recruit, retain, and motivate a highly
                                                       skilled managerial workforce.

Highlights                                             First, an IRS contractor has noted several
                                                       concerns from frontline manager survey
Issued on May 13, 2010                                 responses, such as frontline managers being
                                                       consistently less motivated, committed, and
Highlights of Report Number: 2010-10-054 to the        involved in the IRS mission than other
Internal Revenue Service Human Capital Officer.        managers. The contractor also observed
                                                       that a large number of managers had
IMPACT ON TAXPAYERS                                    stepped down from management positions.
                                                       Additional research is needed to determine if
With an increasingly retirement-eligible managerial
                                                       there are explanations for these
workforce and the work of the Internal Revenue
                                                       observations and if these observations are
Service (IRS) becoming more complex, it will be
                                                       unintended consequences of the
essential that the Pay-for-Performance System
                                                       implementation of the Pay-for-Performance
successfully accomplishes its purpose. While the
                                                       System. Second, the IRS is not gathering all
IRS has started the process of gathering data on
                                                       of the data it needs to fully evaluate the
managers’ perceptions of the System, it is not
                                                       System and its impact, if any, on managers.
gathering all of the data it needs to fully evaluate
                                                       Lastly, the IRS does not have a sufficient
the System and its impact, if any, on managers. If
                                                       structure in place to evaluate and address
the IRS does not identify and adequately address
                                                       issues associated with the Pay-for-
concerns with the Pay-for-Performance System, it
                                                       Performance System.
may be a negative factor for current or future
leaders who serve in key roles to enable the IRS to    WHAT TIGTA RECOMMENDED
provide American taxpayers with the high-quality
service they have come to expect.                      TIGTA recommended that the IRS 1) collect
                                                       additional data to assess the impact the
WHY TIGTA DID THE AUDIT                                IRS Pay-for-Performance System is having on
                                                       recruiting, retaining, and motivating highly skilled
The overall objective of this review was to
                                                       leaders; 2) conduct additional research on
determine whether the IRS Human Capital Office
                                                       two contractor observations; and 3) define a
had established the necessary processes for
                                                       process where Pay-for-Performance System
assessing and monitoring the progress of the
                                                       issues are assessed at least annually.
Pay-for-Performance System to ensure the System
assists the IRS in recruiting, retaining, and          In their response to the report, IRS officials
motivating highly skilled leaders. This audit was      stated that they agreed with the
the result of an informal suggestion from the former   recommendations in the report. They plan to
IRS Human Capital Officer.                             gather additional information to evaluate the
                                                       recruitment and retention of managers in the
WHAT TIGTA FOUND                                       IRS Pay-for-Performance System; further define
While 5 years of data are needed before the            the process to assess, elevate, and address
impact of the Pay-for-Performance System can           pay-for-performance issues; and ensure an
be fully evaluated, the IRS has started the            annual overview is provided to senior
process of gathering data on manager                   leadership.
perceptions of the System. In addition, as part
of an interim evaluation, an IRS contractor has
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 13, 2010


 MEMORANDUM FOR INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Actions Are Needed to Measure and
                             Evaluate the Impact of the Pay-for-Performance System on Recruiting,
                             Retaining, and Motivating Highly Skilled Leaders (Audit #200910012)

 This report presents the results of our review of the Pay-for-Performance System. The overall
 objective of this review was to determine whether the Internal Revenue Service (IRS) Human
 Capital Office had established the necessary processes for assessing and monitoring the progress
 of the Pay-for-Performance System to ensure the System assists the IRS in recruiting, retaining,
 and motivating highly skilled leaders. This audit was conducted as part of the Treasury Inspector
 General for Tax Administration Fiscal Year 2010 annual audit plan and was the result of an
 informal suggestion from the former IRS Human Capital Officer that we review the
 Pay-for-Performance System and ongoing efforts to evaluate the effectiveness of the System.
 This audit addresses the major management challenge of Human Capital.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                           Additional Actions Are Needed to Measure and Evaluate
                              the Impact of the Pay-for-Performance System on
                         Recruiting, Retaining, and Motivating Highly Skilled Leaders




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Pay for Performance Office Has Been Gathering Data on Manager
          Perceptions of the Pay-for-Performance System ..........................................Page 5
          Additional Research Is Needed Regarding Contractor Observations to
          Ensure Managers Are Not Being Negatively Affected by the
          Pay-for-Performance System ........................................................................Page 6
          The Internal Revenue Service Does Not Have All the Necessary Data,
          Measures, and Monitoring Processes to Fully Assess the
          Pay-for-Performance System’s Impact .........................................................Page 8
                    Recommendation 1:........................................................Page 12

                    Recommendations 2 through 3:.........................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Description of the Office of Personnel Management
          Alternative Personnel System Objective-Based Standards...........................Page 18
          Appendix V – Analysis of Data Collected Regarding the
          Pay-for-Performance System ........................................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 22
        Additional Actions Are Needed to Measure and Evaluate
           the Impact of the Pay-for-Performance System on
      Recruiting, Retaining, and Motivating Highly Skilled Leaders




                    Abbreviations

GS            General Schedule
IRS           Internal Revenue Service
OPM           Office of Personnel Management
                        Additional Actions Are Needed to Measure and Evaluate
                           the Impact of the Pay-for-Performance System on
                      Recruiting, Retaining, and Motivating Highly Skilled Leaders




                                             Background

Provisions of the Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 1
authorized the Secretary of the Treasury to establish one or more paybanding systems for
IRS employees. At that time, all IRS employees were compensated through the General
Schedule (GS) Pay System, which provided pay raises to employees based on the length of time
an employee was in a job as long as their work performance was satisfactory. Based on the
authority provided in the IRS Restructuring and Reform Act of 1998, the IRS implemented a
Payband System (hereafter referred to as the Pay-for-Performance System) that evaluates and
compensates managers differently from employees under the GS Pay System. Under the
Pay-for-Performance System, managers were grouped into bands which reflect career paths
associated with their occupational job series. 2 The amount of a pay raise under the
Pay-for-Performance System is determined by the IRS Commissioner and is based on the annual
performance rating received by the manager.
The IRS initially implemented its performance-based pay system in three phases beginning with
senior managers in March 2001, followed by department managers in November 2001, and
frontline managers in September 2005. 3 In March 2006, the senior manager and department
manager paybands were revised to incorporate the pay elements of the frontline manager
payband that featured setting pay based on an annual review of the performance rating earned by
each manager.
The IRS Pay-for-Performance System is designed to link results-oriented performance to
organizational goals and objectives. All managers are evaluated using five rating levels and
managers are to be held accountable for supporting the IRS mission to provide America’s
taxpayers top quality service by helping them understand and meet their tax responsibilities and
by applying the tax law with integrity and fairness to all. This is accomplished by annually
assessing managers’ performance based on their responsibilities as an IRS manager, on their

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered section of 2 U.S.C., 5 U.S.C. app., 16 U.S.C.,
19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An occupational job series includes similar positions that are based on specialized work and qualification
requirements. For example, attorneys who write legal opinions and attorneys who prosecute tax cases would be in
the same occupational job series.
3
  The IRS Pay-for-Performance System covers senior managers, department managers, and frontline managers.
Senior managers are second-level supervisory/managerial positions or first-level managerial positions that report
directly to a member of the Senior Executive Service and were previously classified at the GS-14 or 15 grade levels.
Department managers are second-level managerial positions located in the IRS campuses and were previously
classified at the GS-11, 12, or 13 grade levels. Frontline managers are managerial positions not covered under the
senior manager or department manager paybands and were previously classified at the GS-5 through GS-15 grade
levels.
                                                                                                             Page 1
                       Additional Actions Are Needed to Measure and Evaluate
                          the Impact of the Pay-for-Performance System on
                     Recruiting, Retaining, and Motivating Highly Skilled Leaders



individual performance commitments, and on a retention standard which requires all IRS
employees to be evaluated on the fair and equitable treatment of taxpayers.
Management responsibilities are evaluated in five different areas including leadership, employee
satisfaction, customer satisfaction, business results, and equal employment opportunity. In
addition to these areas, managers have individual performance commitments which are
statements of outcomes, critical actions, and objectives expected to be accomplished during a
clear time period. The performance commitments should link to and support managers’
responsibilities. Managers are annually rated on whether they met their responsibilities and
commitments, which may make them eligible for a permanent increase to their pay, a bonus or
lump-sum cash payment, or possibly both.
The IRS Human Capital Office is responsible for administering the IRS Pay-for-Performance
System and establishing a Pay for Performance Office. Decisions and modifications to the
Pay-for-Performance System are made by the Human Capital Board. The Human Capital Board
is led by the IRS Human Capital Officer and includes agency-wide representation, including
executives from each of the business operating divisions.
In a prior Treasury Inspector General for Tax Administration audit, 4 we found that there were
several areas where the System could be improved. For example, the IRS used
IRS Restructuring and Reform Act of 1998 authority to proceed with the implementation of the
Pay-for-Performance System, but it did not appear it fully implemented all of the Act’s
provisions, which were designed to help facilitate pay and classification adjustments necessary to
restructure the IRS organization. Also, the IRS Human Capital Office did not establish pay
policies and procedures that ensured managers were compensated comparably with
IRS employees in the GS Pay System or that ensured performance-based increases were
commensurate with the manager’s performance. In addition, the IRS Human Capital Office did
not sufficiently communicate the details of the Pay-for-Performance System to the affected
managers, which decreased morale and increased opposition to some of the provisions of the
System.
While the prior audit focused on the IRS implementation of its Pay-for-Performance System, our
current audit focused on the progress the IRS is making since implementing the System. During
our current audit, changes were being considered for alternative personnel systems, such as the
IRS Pay-for-Performance System, throughout the Government. Some of these changes include
creating a Government-wide, performance-based pay system; setting mandatory spending levels
for training; and retooling the performance appraisal process as part of a personnel reform bill by
November 2010. This report reflects the status of the IRS Pay-for-Performance System as of
December 2009 when we completed our fieldwork.


4
 The Internal Revenue Pay-for-Performance System May Not Support Initiatives to Recruit, Retain, and Motivate
Future Leaders (Reference Number 2007-10-106, dated July 3, 2007).
                                                                                                        Page 2
                    Additional Actions Are Needed to Measure and Evaluate
                       the Impact of the Pay-for-Performance System on
                  Recruiting, Retaining, and Motivating Highly Skilled Leaders



This review was performed at the IRS Human Capital Office Workforce Progression and
Management Division in Washington, D.C., during the period May through December 2009. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 3
                     Additional Actions Are Needed to Measure and Evaluate
                        the Impact of the Pay-for-Performance System on
                   Recruiting, Retaining, and Motivating Highly Skilled Leaders




                                 Results of Review

The IRS implemented its Pay-for-Performance System to assist in recruiting, retaining, and
motivating its managerial workforce. The IRS is at a critical juncture with many of its
experienced leaders eligible to retire or becoming eligible to retire in the near future. For
example, the IRS has stated that it must recruit one manager a day for the next 10 years. In
conjunction with an increasingly retirement-eligible managerial workforce, the work of the IRS
is becoming more complex and global. Therefore, it will be essential that the
Pay-for-Performance System successfully accomplishes its purpose.
While 5 years of data are needed before the impact of the Pay-for-Performance System can be
fully evaluated, the IRS has started the process of gathering data on manager perceptions of the
System. In addition, as part of an interim evaluation, an IRS contractor has determined the
Pay-for-Performance System is not having a negative impact on the IRS managerial workforce.
While these are positive initial steps, there are several actions the IRS needs to take that, if not
taken, will result in the IRS not being able to determine if the Pay-for-Performance System is
helping the IRS recruit, retain, and motivate a highly skilled managerial workforce or is a
detractor to those goals.
Based on the information gathered by December 2009, the IRS has identified some areas where
there may be potential problems in managers’ perceptions of the Pay-for-Performance System.
First, an IRS contractor has noted several concerns from frontline managers’ responses to survey
results. For example, frontline managers were consistently less motivated, committed, and
involved in the IRS mission than other managers. In addition, the contractor observed a large
number of managers had stepped down from management positions. On the surface, these are
troubling indicators, and additional research is needed to determine if there are explanations for
these contractor observations and if these observations are unintended consequences of the
implementation of the Pay-for-Performance System. Second, the IRS has not developed and is
not gathering all of the data it needs to fully evaluate the System and its impact, if any, on
managers. Lastly, the IRS does not have a sufficient structure in place to evaluate and address
issues associated with the Pay-for-Performance System. If the IRS does not identify and
adequately address concerns with the Pay-for-Performance System, it may be a negative factor
for current or future leaders who serve in key roles to enable the IRS to provide
American taxpayers with the high-quality service they have come to expect.




                                                                                               Page 4
                         Additional Actions Are Needed to Measure and Evaluate
                            the Impact of the Pay-for-Performance System on
                       Recruiting, Retaining, and Motivating Highly Skilled Leaders



The Pay for Performance Office Has Been Gathering Data on Manager
Perceptions of the Pay-for-Performance System
The IRS Pay for Performance Office has taken steps to begin assessing the impact of the
Pay-for-Performance System. For example, it has designed and implemented a framework to
collect and assess managers’ perceptions regarding pay issues. In addition, it hired a contractor
to conduct an evaluation of the Pay-for-Performance System.
In June 2008, the Office of Personal Management (OPM) issued guidance to assist Federal
agencies on methods for evaluating alternative personnel systems. 5 Prior to this, the IRS Human
Capital Office developed its own Framework with measures to assess and monitor the progress
of the Pay-for-Performance System. The IRS Framework is designed to evaluate trends over
multiple years by using measures to assess whether the Pay-for-Performance System:
1. Effectively links employee performance to IRS goals and results.
2. Differentiates between high and low performers and rewards employees on the basis of
   performance.
3. Attracts high-quality managers, retains high performers by keeping them satisfied, and
   transitions out low performers.
4. Establishes a perception among employees that the pay system is fair, trustworthy, and
   transparent.
The IRS Human Capital Office generally used the results from annual surveys of IRS employees
to gather information on perceptions of pay issues and to evaluate the effect the
Pay-for-Performance System is having on managers. For instance, the IRS Human Capital
Office used employee survey results to determine whether managers perceived that their work
was related to IRS goals and whether they were being held accountable for achieving
performance objectives linked to these goals. It also used employee survey results to evaluate
whether managers perceived that performance ratings accurately differentiated levels of
performance and whether they perceived there was an association between performance ratings
and financial rewards.
Employee job satisfaction, employee commitment to their work, and employee perceptions on
whether they are being treated fairly may at times be related to pay issues. The IRS Human
Capital Office used employee survey results to evaluate manager attitudes about job satisfaction
and commitment to the IRS, to determine the degree the IRS Pay-for-Performance System
attracts high-quality new hires and helps reshape the workforce as needed, and to measure
increases in employee proficiency. Annual surveys were also used to gather information on
manager perceptions of fairness, trust, and dispute resolution.

5
    See Appendix IV for additional information on the OPM guidance.
                                                                                            Page 5
                      Additional Actions Are Needed to Measure and Evaluate
                         the Impact of the Pay-for-Performance System on
                    Recruiting, Retaining, and Motivating Highly Skilled Leaders



In September 2007, the IRS hired a human resources consulting firm contractor to determine
whether the IRS Pay-for-Performance System is helping to recruit, motivate, and keep future
leaders. The contractor was tasked with evaluating the Pay-for-Performance System and
providing recommendations for improving the System. At the time we concluded our audit work
in December 2009, the contractor had delivered two reports.
The contractor’s first report, in July 2008, noted that it initially received feedback through
interviews and focus groups that indicated that there was little incentive for employees to step
into frontline manager positions in the IRS. The contractor also concluded that frontline
managers did not see themselves as a valued, integral part of the management team. The
contractor’s second report (in June 2009), however, concluded that after following up on initial
feedback, the IRS Pay-for-Performance System was not having a negative effect on the
managerial workforce. In fact, IRS employee survey data pointed to a managerial workforce
which was generally more engaged 6 than their counterparts Government-wide.
One of the contractor’s objectives was to also identify data that would help address commonly
held workforce beliefs that emerged since the Pay-for-Performance System was expanded to
include the frontline managers in 2006. The contractor concluded that existing data will provide
the IRS with a solid foundation for continued review of the Pay-for-Performance System and
made recommendations regarding the need for additional data. The contractor also observed
potential problem areas concerning frontline managers and retention of managers. We also
believe the IRS needs additional data, and we believe the IRS needs to follow up on observations
the contractor made regarding frontline manager and retention issues.

Additional Research Is Needed Regarding Contractor Observations to
Ensure Managers Are Not Being Negatively Affected by the
Pay-for-Performance System
While the contractor determined the IRS managerial workforce was generally more engaged than
their counterparts Government-wide, the contractor also reported several concerns regarding
frontline managers. In addition, the contractor noted a large number of managers had stepped
down from management positions. Without additional research, the IRS will be unable to
determine if there are reasonable explanations for these observations or if the
Pay-for-Performance System is having an unintended negative impact on the IRS managerial
workforce.
The IRS Pay-for-Performance System is designed to provide the IRS with improved recruitment,
retention, and motivation that will assist in improving job satisfaction by making employees feel
more engaged. However, the contractor evaluating the Pay-for-Performance System reported

6
 The IRS defines employee engagement as the degree of motivation, commitment, and involvement in the mission
of the IRS.
                                                                                                      Page 6
                    Additional Actions Are Needed to Measure and Evaluate
                       the Impact of the Pay-for-Performance System on
                  Recruiting, Retaining, and Motivating Highly Skilled Leaders



that early employee survey responses from the frontline manager group indicate that these
employees were less engaged than department managers and senior managers. The IRS partially
addressed this concern by implementing a web site to provide managers with information on
resources and equipment that are available to assist frontline managers in completing their duties.
Nevertheless, the frontline manager group consistently reported a lower degree of satisfaction in
the recognition they receive for doing a good job, distinguishing differences in performance
within their unit, and the support they receive for development opportunities. Since engagement
issues can relate to concerns other than pay, the IRS will need additional information to
determine whether the Pay-for-Performance System is a negative factor in the employee
engagement ratings reported by frontline managers.
Early employee survey results reported by the contractor also show that there is a risk that the
IRS may not be motivating its high performing frontline managers. For example, survey results
showed that some frontline managers were concerned about their pay. Survey results showed
that frontline managers consistently rated lower than senior managers and department managers
when responding to questions regarding their satisfaction with the amount they are paid. In
addition, frontline managers responded considerably less positively than senior and department
managers about their opportunities to obtain a better job and their involvement in decisions that
affect their work. Similar to employee engagement, the IRS will need additional information in
this area to determine whether the Pay-for-Performance System is factoring into the lower
ratings.
In addition to survey items, early results also show there is a risk that the Pay-for-Performance
System is not assisting the IRS in retaining its managers. The contractor reported that within the
IRS, there are a considerable number of moves from the Pay-for-Performance System back to the
GS Pay System. Over a 3-year period, there were almost 1,100 movements from positions in the
Pay-for-Performance System to positions in the GS Pay System. About 500 of these could be
attributable to temporary promotions and their corresponding reassignment resulting from
seasonal work. However, approximately 600 actions reflected as reassignments need to be
further studied to assess the reason for these moves to determine if actions need to be taken to
improve managerial retention. Specifically, further analysis is needed to assess whether
pay-for-performance issues are a contributing factor to the managerial departures. When we
discussed this with IRS Human Capital Office management, they thought there may be more
temporary management reassignments (e.g., 120-day temporary promotions) than the contractor
took into account and agreed that additional analysis is needed.
If frontline managers with lower engagement scores are concerned about their pay and are
moving back to the GS Pay System due in part to the Pay-for-Performance System, the System is
not helping the IRS recruit, retain, and motivate highly skilled leaders. While we do not know if
the cause of these concerns is the Pay-for-Performance System, it will be important for the IRS
to develop a deeper understanding of these concerns and take action, if needed.


                                                                                            Page 7
                      Additional Actions Are Needed to Measure and Evaluate
                         the Impact of the Pay-for-Performance System on
                    Recruiting, Retaining, and Motivating Highly Skilled Leaders



The Internal Revenue Service Does Not Have All the Necessary Data,
Measures, and Monitoring Processes to Fully Assess the
Pay-for-Performance System’s Impact
While the IRS has processes for analyzing manager perceptions using employee survey results, it
recognizes that it also needs data 7 from other sources to evaluate the System. However, we
determined the IRS does not have all of the data needed to evaluate the Pay-for-Performance
System and does not have all of the measures in place that will enable it to assess the impact the
Pay-for-Performance System has on recruiting, retaining, and motivating highly skilled leaders.
Specifically, the IRS does not monitor the percentage of managers with performance plans with
individual goals that are linked to the IRS’ mission and include credible performance targets.
The IRS also does not use objective measures to assess performance in meeting workforce
quality goals, or track the number of adverse actions and number of performance rating appeals
to assess whether managers are being treated equitably.
In addition, while we were advised that survey results and contractor recommendations were
presented, discussed, and sometimes acted upon by the Human Capital Board, the role of the
Board in evaluating and deciding pay-for-performance issues is unclear since we found no
reports or other monitoring tools related to pay-for-performance issues being regularly prepared
and evaluated. The Human Capital Board was designed to foster collaboration across
organizational boundaries to ensure a coordinated agency-wide approach is used for IRS human
capital plans, policies, and practices. Collectively and individually, Board members are
accountable for the performance and actions of the IRS and are expected to be informed on
issues impacting the IRS workforce. In addition, strong support from IRS senior leaders in
addressing managers’ concerns, including those with the Pay-for-Performance System, will
strengthen managers’ perceptions of being satisfied, valued employees who are committed to
their work.
Additional data and measures would help signal IRS management as soon as possible as to
whether the Pay-for-Performance System is achieving its intended results and will provide
management with information agency-wide to better interpret managers’ perceptions or concerns
raised at manager meetings or other local events, such as the IRS Tax Forums. 8 A structure for
assessing the Pay-for-Performance System agency-wide would ensure that results are elevated so
that any necessary adjustments can be made to improve results and address the concerns of
managers.



7
  In addition to employee survey data, examples of OPM recommended data sources include web sites, training
documents, instructions/directives, statistical data from a Human Resources information system, strategic and
operational plans, etc.
8
  The IRS Oversight Board attends IRS Tax Forums and obtains feedback from both preparers and IRS employees.
                                                                                                       Page 8
                      Additional Actions Are Needed to Measure and Evaluate
                         the Impact of the Pay-for-Performance System on
                    Recruiting, Retaining, and Motivating Highly Skilled Leaders



The IRS does not have the necessary data to assess the impact of the
Pay-for-Performance System
As mentioned previously, the OPM issued guidance to Federal agencies on evaluating alternative
personnel systems, such as the IRS Pay-for-Performance System. We compared the
IRS Framework and measures for evaluating its Pay-for-Performance System to the
OPM Framework and suggested measures. We determined that additional data and measures
were needed to fully assess the Pay-for-Performance System. Appendix V provides details on
several key areas where data were missing in the IRS evaluation of the Pay-for-Performance
System, as well as the impact the missing data will have on a comprehensive evaluation of the
System.
The need for additional information to appropriately assess the Pay-for-Performance System was
also noted by the contractor hired by the IRS to provide a quantitative assessment of the health of
the IRS Pay-for-Performance System. The assessment concluded that there were several areas
where additional data would be needed. The assessment suggested that obtaining the necessary
data will be critical to narrowing the focus of potential problem areas.
One contributing factor explaining why some of the data may be missing from the
IRS Framework is that the OPM Framework was not developed until June 2008, which was after
the IRS had implemented its Framework. Another contributing factor is that the
OPM Framework does not mandate an evaluation of alternative pay systems. Instead, the OPM
suggests that systems be internally assessed. Finally, a third contributing factor is that the
Human Capital Office Business Performance Review (a process detailed in the next section)
does not routinely include pay-for-performance data, which would prompt the IRS to develop
measures for assessing the Pay-for-Performance System.

The IRS does not have effective measures to assess the impact of the
Pay-for-Performance System
In our most recent assessment of IRS actions to address its human capital challenge, 9 we
reported that the IRS has not always had the capability to measure the success of its human
capital efforts. A key principle to effective strategic workforce planning is to evaluate and
monitor
(i.e., measure and adjust) an agency’s progress toward its human capital goals. However, human
capital measures that were developed in the past were not always linked to strategic goals and,
therefore, did not allow IRS management to assess the progress of the agency’s human capital
efforts. Effective measures are needed to determine if strategies are productive and, if not, to
signal management to adjust the strategies as soon as possible to improve results.


9
 To Address Its Human Capital Challenge, the Internal Revenue Service Needs to Focus on Four Key Areas
(Reference Number 2009-10-118, dated August 19, 2009).
                                                                                                         Page 9
                         Additional Actions Are Needed to Measure and Evaluate
                            the Impact of the Pay-for-Performance System on
                       Recruiting, Retaining, and Motivating Highly Skilled Leaders



The IRS Human Capital Office Business Performance Review is a vital component of the
IRS planning and budget processes. It provides a framework for measuring, reporting, and
reviewing the IRS Human Capital Office’s performance on established human capital strategic
planning goals, initiatives, and collaborative programs and processes. Reported quarterly, the
Business Performance Review is one of several communication vehicles which provide
information to support the human capital performance goals of the IRS.
Our analysis of Business Performance Reviews from Fiscal Years 2005 through 2009 showed
that they did not routinely include pay-for-performance data. The only Pay-for-Performance
System indicators we identified in the Business Performance Review were the average number
of manager applicants per vacancy, and employee engagement and satisfaction survey results for
managers that did not include any pay-related questions. These measures will provide some
information on the effectiveness of IRS efforts to recruit and retain managers; however, the IRS
must develop additional measures to supplement measures in the Business Performance Review.
The Pay for Performance Director stated that performance measures are not being routinely
reported because they are not required to be elevated. The Director further stated that
pay-for-performance data are reported for the Business Performance Review following the
annual employee survey or when they are requested by the IRS Human Capital Office.

The IRS does not have sufficient monitoring processes to ensure
pay-for-performance issues are appropriately evaluated
OPM studies of alternative personnel systems have shown it takes at least 5 years for the
majority of employees to be supportive of a change to a new system, such as the
IRS Pay-for-Performance System. Therefore, OPM guidance suggests that 5 years is needed to
perform a thorough assessment, but evaluating interim results is important in the meantime since
there still may be a number of employee concerns that can be immediately addressed. However,
we determined the IRS is not effectively evaluating and addressing interim results because it has
not developed all of the monitoring tools needed to evaluate interim results and has not clearly
defined the role of the Human Capital Board in evaluating pay-for-performance issues.
The OPM Framework recommends periodic assessments of alternative personnel systems to
make changes and track progress. It includes an Executive Dashboard model, which answers the
key questions that are asked by leaders who have responsibility for implementing the alternative
personnel system and allows them to see the results of the assessments for the system. The
Dashboard visually shows where the agency is for each of the elements of the five dimensions in
the OPM Framework 10 and provides policymakers with an overview of the System’s status and
identifies areas requiring special emphasis.



10
     See Appendix IV for additional information about the five dimensions in the OPM Framework.
                                                                                                  Page 10
                     Additional Actions Are Needed to Measure and Evaluate
                        the Impact of the Pay-for-Performance System on
                   Recruiting, Retaining, and Motivating Highly Skilled Leaders



The Dashboard or a similar monitoring tool could be useful to IRS managers and other
policymakers, such as the Human Capital Board, who are responsible for ensuring the
Pay-for-Performance System is meeting its desired objectives. In the IRS, the Human Capital
Board advises and assists the Commissioner in setting the IRS human capital management
strategy and fostering collaboration across organizational boundaries to ensure a coordinated
agency-wide approach to IRS human capital plans, policies, and practices.
There were no clearly defined roles for evaluating pay-for-performance issues by the Human
Capital Board, which decreases assurance the IRS will take responsive action to address
employees’ and other stakeholders’ pay-for-performance issues. The link between the Pay for
Performance Office that obtains the data and the Human Capital Board that makes the decisions
about what actions to take needs to be strengthened. Reports or other monitoring tools are not
regularly prepared by the Pay for Performance Office for consideration by the IRS Human
Capital Office or the Human Capital Board.
The Pay for Performance Office currently has 2 years of data and plans to put all of the
information it is gathering from the IRS Framework in a yet to be designed report at the end of
each fiscal year after it has enough data to identify whether a trend exists. Ensuring that
monitoring tools are put in place will enable the Pay for Performance Office to identify trends
that may require action by the IRS Human Capital Office or the Human Capital Board.
In addition to data being collected by the IRS Pay for Performance Office, the IRS also receives
reports from a contractor it hired to evaluate the Pay-for-Performance System. At the end of our
fieldwork, the contractor had issued two reports with recommendations. Contractor
recommendations are first reviewed by the Human Capital Office that may or may not forward
them to the Human Capital Board for a decision on the actions that should be taken by the IRS.
Recommendations acted upon and approved by the Board are then forwarded to the Office of the
Commissioner for final approval. However, the IRS does not officially respond to contractor
recommendations and all of them are not formally tracked. As our audit work concluded, some
contractor recommendations were under review (i.e., establishing lump-sum performance-based
payments where the pay cap limits the amount of performance-based pay increase) and it was not
clear which contractor recommendations had been addressed or presented to the Human Capital
Board. If a process for evaluating pay-for-performance issues is not adopted and issues are not
better tracked, the IRS will run the risk that a System that has been put in place to recruit, retain,
and motivate highly skilled leaders is ineffective or is not as effective as it could be.




                                                                                             Page 11
                    Additional Actions Are Needed to Measure and Evaluate
                       the Impact of the Pay-for-Performance System on
                  Recruiting, Retaining, and Motivating Highly Skilled Leaders



Recommendations
Recommendation 1: We recommend that the IRS Workforce Progression and Management
Division Director ensure additional data are collected to assess the impact the IRS
Pay-for-Performance System is having on recruiting, retaining, and motivating highly skilled
leaders. Specifically, the following data should be collected and tracked:
   •   The percentage of individual performance plans (from a sample of performance plans)
       with individual goals that are linked to the agency’s mission to determine if a manager’s
       work is appropriately aligned to the IRS mission.
   •   The percentage of individual performance plans (from a sample of performance plans)
       with credible performance targets to assess whether managers are accountable for
       achieving them.
   •   The ratio of high-quality applicants to the total number of eligible applicants to assess the
       IRS’ ability to attract high-quality managers over time.
   •   Turnover rates for both high performance ratings (4s and 5s out of a 5-point scale) and
       low performance ratings (1s and 2s) to assess whether high performers are being retained
       and low performers are being appropriately addressed.
   •   The number of adverse actions and appeals related to performance ratings of
       IRS Pay-for-Performance System managers to assess the fairness of the
       pay-for-performance process.
       Management’s Response: Management agreed with the recommendation and will
       collect and analyze a sample of manager performance plans to determine the percentage
       of plans with performance goals aligned to the IRS mission. Based on the sample of
       performance plans, they will review the results for these plans to determine the
       percentage of individual managers achieving their performance goals. The IRS will
       develop metrics to determine the ratio of best-qualified applicants to the total number of
       applicants for managerial vacancies in the IRS Pay-for-Performance System and to
       determine the percentage of attrition rates for managers with high and low performance
       ratings. In addition, they will develop a report on the number of adverse actions and
       appeals related to performance ratings for managers covered by the IRS
       Pay-for-Performance System. Results will be shared with the IRS Human Capital Office
       and Human Capital Board.




                                                                                            Page 12
                    Additional Actions Are Needed to Measure and Evaluate
                       the Impact of the Pay-for-Performance System on
                  Recruiting, Retaining, and Motivating Highly Skilled Leaders



Recommendation 2: We recommend that the IRS Workforce Progression and Management
Division Director ensure additional research is conducted on two contractor observations.
Specifically, the IRS Human Capital Office should:
    •   Perform further analysis to determine why frontline managers may be concerned with
        their pay and are consistently less engaged and less satisfied than senior managers and
        department managers.
    •   Perform further analysis to determine why there are significant increases in the number
        of employees moving from the Pay-for-Performance System to GS Pay System positions
        to assess whether pay-for-performance issues are a contributing factor.
        Management’s Response: Management agreed with the recommendation and will
        analyze Employee Survey results for managers in the IRS Pay-for-Performance System.
        The IRS will analyze questions associated with pay and job satisfaction, contrast the
        responses by manager group (Senior, Department, and Frontline Managers), and identify
        the top two drivers for pay and job satisfaction. The IRS will also analyze the movement
        of managers from the IRS Pay-for-Performance System to the GS Pay System to
        determine categories of movement. A metric will be developed to compare the
        percentage of managers moving into and out of the IRS Pay-for-Performance System by
        category of movement. Results will be shared with the IRS Human Capital Office and
        the Human Capital Board.
Recommendation 3: We recommend that the IRS Human Capital Officer define a process
where Pay-for-Performance System issues are assessed at least annually. Specifically:
   •    The Pay for Performance Office should develop reports and other monitoring tools to
        assist in identifying issues that may require further analysis.
   •    The IRS Human Capital Office and the Human Capital Board should determine the best
        methodology for using these reports and monitoring tools to ensure that
        Pay-for-Performance System issues are elevated and addressed.
        Management’s Response: Management agreed with the recommendation. The
        report of program indicators developed by the Pay for Performance Office will be revised
        to incorporate the data recommended in this audit. Results will be used to identify issues
        that may need further analysis and will be shared annually with the Human Capital Board
        for appropriate action(s), as necessary. The IRS Human Capital Office and the Human
        Capital Board will determine a process to ensure Pay-for-Performance issues are elevated
        and addressed by the Human Capital Board at least annually.




                                                                                          Page 13
                   Additional Actions Are Needed to Measure and Evaluate
                      the Impact of the Pay-for-Performance System on
                 Recruiting, Retaining, and Motivating Highly Skilled Leaders



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the IRS Human Capital Office had established
the necessary processes for assessing and monitoring the progress of the Pay-for-Performance
System to ensure the System assists the IRS in recruiting, retaining, and motivating highly
skilled leaders. We used the OPM Alternative Personnel Systems Objectives-Based Assessment
Framework Handbook as a guide. For each of the attributes below, we analyzed the
IRS Framework for evaluating the attribute, compared the IRS methodology and measures to
OPM criteria, reviewed IRS interim results and any third-party recommendations, and
determined if actions had been taken to address problems identified. To accomplish the
objective, we:
I.     Determined whether existing processes would assist the IRS Human Capital Office in
       evaluating whether the IRS Pay-for-Performance System was accomplishing the
       OPM Alternative Personnel Systems objective to link individual, team, and unit
       performance to organizational goals and desired results.
II.    Determined whether existing processes would assist the IRS Human Capital Office in
       evaluating whether the IRS Pay-for-Performance System was accomplishing the
       OPM Alternative Personnel Systems objective to promote a high-performance workforce
       by differentiating between high and low performers and by rewarding employees on the
       basis of performance while effectively managing payroll costs.
III.   Determined whether existing processes would assist the IRS Human Capital Office in
       evaluating whether the IRS Pay-for-Performance System was accomplishing the
       OPM Alternative Personnel Systems objective to retain high performers, keep employees
       satisfied and committed, attract high-quality new hires, and transition low performers out
       of the organization.
IV.    Determined whether existing processes would assist the IRS Human Capital Office in
       evaluating whether the IRS Pay-for-Performance System was accomplishing the
       OPM Alternative Personnel Systems objective to promote an environment of fairness and
       trust for employees.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. The following internal controls

                                                                                         Page 14
                   Additional Actions Are Needed to Measure and Evaluate
                      the Impact of the Pay-for-Performance System on
                 Recruiting, Retaining, and Motivating Highly Skilled Leaders



were relevant to our objective: IRS Human Capital Office procedures, the IRS Framework for
evaluating Pay-for-Performance System attributes, and the criteria in the OPM Alternative
Personnel Systems Objectives-Based Assessment Framework Handbook for evaluating the
implementation of Federal Government alternative pay systems. We evaluated these controls by
interviewing management and reviewing applicable information.




                                                                                     Page 15
                  Additional Actions Are Needed to Measure and Evaluate
                     the Impact of the Pay-for-Performance System on
                Recruiting, Retaining, and Motivating Highly Skilled Leaders



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Marjorie A. Stephenson, Lead Auditor
Andrew J. Burns, Senior Auditor
David M. Bueter, Auditor




                                                                                  Page 16
                 Additional Actions Are Needed to Measure and Evaluate
                    the Impact of the Pay-for-Performance System on
               Recruiting, Retaining, and Motivating Highly Skilled Leaders



                                                                    Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Director, Workforce Progression and Management Division OS:HC:WPM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: IRS Human Capital Officer OS:HC




                                                                          Page 17
                          Additional Actions Are Needed to Measure and Evaluate
                             the Impact of the Pay-for-Performance System on
                        Recruiting, Retaining, and Motivating Highly Skilled Leaders



                                                                                   Appendix IV

    Description of the Office of Personnel Management
      Alternative Personnel System Objective-Based
                         Standards

The OPM is statutorily charged in the Chief Human Capital Officers Act of 2002 1 with
improving strategic human capital management of the Government’s civilian workforce. To
accomplish this mandate, it is required to coordinate with agencies on human capital
transformation and assess agency efforts in implementing human capital systems. To aid its
coordination efforts, the OPM developed assessment standards for Federal agencies to meet and
collaborates with them to meet the standards.
The OPM developed an Alternative Personnel System Objectives-Based Assessment Framework
Handbook in June 2008 to provide agencies with a credible approach for assessing the
effectiveness of alternative pay systems, such as the IRS Pay-for-Performance System. The
Handbook includes a set of standards which, based on past experience in the public and private
sectors and input from key stakeholders in the OPM and other agencies, is essential to
successfully implement significant human capital system reforms. The standards provide a
framework for comparison of agency preparedness or progress in meeting the expectations of
alternative pay systems.
Our audit focused on the five dimensions that will assist the IRS in assessing the progress it is
making in implementing its alternative pay system. Figure 1 describes each of the
five dimensions in the OPM Framework.




1
    Pub. L. No. 107-296, tit. 13,116 Stat. 2135, 2287 (2002).
                                                                                            Page 18
                        Additional Actions Are Needed to Measure and Evaluate
                           the Impact of the Pay-for-Performance System on
                      Recruiting, Retaining, and Motivating Highly Skilled Leaders



           Figure 1: OPM Dimensions for Assessing Alternative Pay Systems

 Dimension            Description
 Mission              Assists organizations in determining if their alternative pay system effectively
 Alignment            links individual, team, and unit performance to organizational goals and desired
                      results.
 Results              Assists organizations in determining if their alternative pay system promotes a
 Oriented             high performance workforce by differentiating between high and low performers
 Performance          and by rewarding employees on the basis of performance while effectively
 Culture              managing payroll costs.
 Workforce            Assists organizations in determining if their alternative pay system is retaining
 Quality              high performers, keeping employees satisfied and committed, attracting
                      high-quality new hires, and transitioning low performers out of the organization.
 Equitable            Assists organizations in determining if their alternative pay system promotes an
 Treatment            environment of fairness and trust for employees consistent with the merit system
                      principles 2 and free of prohibited personnel practices.
 Implementation Assists organizations by showing the extent to which an organization actually
 Plan Execution implemented the alternative pay system in the way it was intended. 3
Source: OPM Alternative Personnel System Objectives-Based Assessment Framework Handbook, dated
October 2008.




 2
   The Federal Government’s merit system principles are designed to ensure fair and open recruitment and
 competition and employment practices free of political influence or other nonmerit factors.
 3
   The IRS is not monitoring this dimension because it believes the dimension was more applicable to the
 implementation phase, which had already been completed.
                                                                                                           Page 19
                    Additional Actions Are Needed to Measure and Evaluate
                       the Impact of the Pay-for-Performance System on
                  Recruiting, Retaining, and Motivating Highly Skilled Leaders



                                                                                  Appendix V

           Analysis of Data Collected Regarding the
                 Pay-for-Performance System

In three of the four OPM dimensions where the IRS is collecting data, we identified additional
data that need to be collected to provide for a more complete assessment of the impact of the
Pay-for-Performance System. Figure 1 describes the specific data that the OPM suggests should
be gathered for these three dimensions, the data that are being gathered by the IRS, and the effect
of collecting all of the data suggested by the OPM.
  Figure 1: Comparison of Data Collected by the IRS to Data the OPM Suggests
  Should Be Collected for Three OPM Dimensions Where Gaps Were Identified

                                                                               Effect of Collecting
                  Data the OPM Suggests            Data Gathered by the       All Data Suggested by
Dimension          Should Be Collected                     IRS                      the OPM
Mission       Sample performance plans to        Employees were               Sampling performance
Alignment     determine if plans are linked to   surveyed regarding their     plans for managers as a
              the agency mission and include     perceptions on the link      separate group would
              credible performance targets.      between their work and       ensure that manager
              Survey employees to measure        the agency mission and       work is aligned with
              perceptions on the link between    goals. Employees were        the IRS mission and
              their work and the agency          also surveyed on their       that credible
              mission and goals and measure      belief that they are         performance targets
              perceptions on their               accountable for achieving    have been established
              accountability for achieving       results. The IRS samples     so that managers can be
              results.                           individual performance       held accountable for
                                                 plans but does not           achieving them.
                                                 evaluate Pay-for-
                                                 Performance System
                                                 managers as a separate
                                                 group.




                                                                                           Page 20
                      Additional Actions Are Needed to Measure and Evaluate
                         the Impact of the Pay-for-Performance System on
                    Recruiting, Retaining, and Motivating Highly Skilled Leaders



                                                                                     Effect of Collecting
                    Data the OPM Suggests              Data Gathered by the         All Data Suggested by
 Dimension           Should Be Collected                       IRS                        the OPM
 Workforce      Measure the ratio of                 Employees were                Measuring the ratio of
 Quality        high-quality applicants to the       surveyed on the ability of    high-quality applicants
                total number of applicants and       their organization to         to the total number of
                the turnover rates for both          attract high-quality new      applicants could assess
                high-performing and                  hires and on whether they     the IRS’ ability to
                low-performing employees.            were satisfied with their     attract high-quality
                Survey employees to measure          job and organization.         managers over time.
                perceptions on the                   The ratio of high-quality     Measuring turnover
                organization’s ability to attract    applicants and the            rates could assess
                high-quality new hires and           turnover rates for            whether high
                measure employee satisfaction        high-performing and           performers are being
                with their job and organization.     low-performing                retained and whether
                                                     employees were not            low performers are
                                                     measured.                     being transitioned out.
 Equitable      Measure the number of adverse        Employees were                Measuring the number
 Treatment      actions, appeals, complaints,        surveyed on beliefs that      of adverse actions and
                and grievances related to            the pay process was fair      the number of appeals
                performance ratings and publish      and whether supervisors       related to performance
                the criteria for assigning ratings   were trusted when rating      ratings could assist in
                and the associated pay               performance. The IRS          assessing the fairness
                increases. Survey employees to       published outreach            of the pay process.
                measure perceptions that the         materials on the criteria
                pay process is fair and              used for rating
                transparent and that employees       employees and making
                trust supervisors to be fair when    pay determinations. The
                rating performance.                  number of complaints
                                                     and grievances was
                                                     measured. Adverse
                                                     actions and the number
                                                     of appeals associated
                                                     with performance ratings
                                                     were not tracked.
Source: OPM Alternative Personnel System Objectives-Based Assessment Framework Handbook, dated
October 2008, and the Internal Revenue Pay System Program Annual Review Framework.




                                                                                                 Page 21
       Additional Actions Are Needed to Measure and Evaluate
          the Impact of the Pay-for-Performance System on
     Recruiting, Retaining, and Motivating Highly Skilled Leaders



                                                      Appendix VI

Management’s Response to the Draft Report




                                                             Page 22
  Additional Actions Are Needed to Measure and Evaluate
     the Impact of the Pay-for-Performance System on
Recruiting, Retaining, and Motivating Highly Skilled Leaders




                                                        Page 23
  Additional Actions Are Needed to Measure and Evaluate
     the Impact of the Pay-for-Performance System on
Recruiting, Retaining, and Motivating Highly Skilled Leaders




                                                        Page 24
  Additional Actions Are Needed to Measure and Evaluate
     the Impact of the Pay-for-Performance System on
Recruiting, Retaining, and Motivating Highly Skilled Leaders




                                                        Page 25
  Additional Actions Are Needed to Measure and Evaluate
     the Impact of the Pay-for-Performance System on
Recruiting, Retaining, and Motivating Highly Skilled Leaders




                                                        Page 26
